                              SOCIAL SECURITY
                                                                    Inspector General

January 5, 2004



The Honorable Paul Ryan
House of Representatives
Washington, D.C. 20515

Dear Mr. Ryan:

In July 21, 2003 and August 5, 2003 letters, you and the other Representatives from the
State of Wisconsin inquired about the management of claimant file assembly contracts
in the Office of Hearings and Appeals’ Chicago Regional Office. We have completed
our work regarding your inquiry. The enclosed report contains the results of our review.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. We have provided copies of the enclosed
report to Representatives Gerald Kleczka; Mark Green; F. James Sensenbrenner, Jr.;
Ron Kind; Tammy Baldwin; Thomas Petri; and David Obey. If you have any questions
concerning this matter, please call me or have your staff contact
H. Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                               Sincerely,




                                               James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals




              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
  CONGRESSIONAL RESPONSE
         REPORT


Chicago Regional Office of Hearings and
    Appeals Claimant Medical Files


              A-13-04-24045




              January 2004
                                    Mission
We improve Social Security Administration’s (SSA) programs and operations and
protect them against fraud, waste, and abuse by conducting independent and
objective audits, evaluations, and investigations. We provide timely, useful, and
reliable information and advice to Administration officials, the Congress, and the
public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                     Background
OBJECTIVE

Our objective was to review specific concerns identified in letters dated July 21, 2003
and August 5, 2003 to the Inspector General from Representatives from the State of
Wisconsin. Generally, the concerns pertained to

    •   disposition of disability cases involving discarded medical records in the Office of
        Hearings and Appeals’ (OHA) Chicago Regional Office;

    •   identification of the Social Security Administration’s (SSA) policies concerning
        security checks of contractors, removal and use of claimants’ files from SSA
        offices, and OHA Chicago Regional Office compliance with these policies; and

    •   determining SSA or private contractor responsibility for the decision to discard
        claimants’ files.

BACKGROUND

In September 2002, SSA awarded two contracts for claimant file assembly services for
its OHA Chicago Regional Office. The contracts required organizing the medical
documents chronologically, arranging documents in appropriate sections, numbering
documents, identifying and retaining duplicate documents, and ensuring all pertinent
documents are appropriately marked. The two contracts were awarded to Training
Solutions, in Country Club Hills, Illinois, for $35,000 and Worldwide Industries in Atlanta,
Georgia, for $47,500.1

In December 2002, contractor employees began working at the OHA Chicago site. SSA
reports that OHA employees performed 100-percent reviews of claimant files
assembled by staff employed by both contractors. In December 2003, the Agency
advised us it had obtained large recycling bins by February 13, 2003, and the discarded
material was moved to those bins. Further, SSA reported the bins had locks and did not
allow access to the discarded documents. We did not independently verify this
information. However, an OHA Chicago employee reported observing in February 2003
trash cans and boxes full of discarded documents in the contractor’s employee work
area. We were told SSA employees did not review the documents contained in these
bins at that time. In May 2003, OHA Chicago Regional Office staff reviewed the work
performed by the two contractors. The review indicated medical and evidentiary, both
original and duplicate documents, had been discarded. On May 9, 2003, SSA




1
 Training Solutions, Contract Number 0600-02-55016 and Worldwide Industries, Contract Number
0600-02-55015.


Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)         1
management and the Office of the Inspector General took custody of claimant files and
escorted contractor employees from the worksite. In July 2003, SSA initiated action to
terminate both contracts.

In a July 21, 2003 letter, eight members of the House of Representatives requested that
we gather information concerning discarded medical information from claims files.
Further, in an August 5, 2003 letter, two members of the House of Representatives
requested that we determine whether SSA or the contractors were responsible for the
decision to throw away claimant files.




Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)   2
                                                    Results of Review
Responses to Questions in July 21, 2003 Correspondence

Concern 1: Of the 1,200 cases handled by contractors hired to help alleviate
disability claim backlogs at the Chicago Regional Office of Hearings and Appeals,
how many were sent out for hearing before SSA discovered documents had been
thrown away? Did any of these claimants receive an unfavorable decision?

An OHA Chicago employee reported observing in February 2003 trash cans and boxes
full of discarded documents in the contractor’s employee work area. We were told SSA
employees did not review the documents contained in these bins at that time. In May
2003, staff at the OHA Chicago Regional Office discovered medical and evidentiary
documents were discarded from claimant files. During our August 2003 visit to the OHA
Chicago Regional Office, Agency staff reported contractors’ employees were involved in
assembly activities concerning 1,244 case files. Agency staff reported 464 files were
forwarded to administrative law judges for decision before May 9, 2003. Unfavorable
decisions were given in seven of the cases reviewed.

As of October 2003, OHA Chicago Regional Office staff reported employees of the
2 contractors handled 1,367 claimant files (9 percent more files than initially indicated in
August 2003). Of these claimant files, 495 were forwarded to administrative law judges
for decisions. Administrative law judges conferred 45 unfavorable decisions in these
cases. SSA advised us that claimants who received unfavorable decisions will be sent
a letter informing them their cases “…will be remanded.”

The Agency stated because of the importance of identifying all cases handled by these
contractors, the OHA staff spent considerable time reviewing and reconciling the
various documents that contained relevant information about the cases the contractors
handled. These included various automated reports reflecting cases sent for
processing by the Hearing Offices, handwritten logs of cases assigned to the
contractors, and reports showing payment to the contractors for completed cases.
Since no single automated report was available to identify all cases, the process was in
large part a labor-intensive, manual process. As more information was reviewed, the
information regarding the number of cases the contractors processed was updated. We
did not independently verify this information.

Concern 2: Have any of these 1,200 claimants been told that portions of their
medical or other documents may have been thrown away by these contractors?
If not, why hasn’t SSA notified claimants about this problem?

Beginning in August 2003, claimants were notified that documents may have been
removed from their files and were provided the opportunity to review their case files.



Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)     3
SSA did not send letters to all claimants with dismissal, favorable and unfavorable
decisions. We could not verify the exact number of claimants who received notices
based on the information SSA provided.

In September 2003, SSA reported it was taking action to notify all claimants that could
have been affected by the contractors’ removal of documents from files. As of
December 3, 2003, some claimants who had dismissal and unfavorable decisions had
been notified. Further, the Agency advised us that notices were being prepared for
claimants who received favorable decisions.

Concern 3: How were the private contractors hired by the Chicago OHA chosen?
What kind of security checks were applied? What kind of security checks were
done on the people working for the contractors who actually tossed the records
in the recycling bin?

Contractor Selection Process

The contracts awarded were handled in accordance with the Agency’s contracting
policies and procedures.2 In its Abstract of Quotations, the Chicago Regional Office
indicated past performance, experience and price were the evaluation factors.
However, price was considered the most important factor in selecting the contractors for
file assembly contracts. Performance and experience were considered less significant.3

Contractor Suitability Determinations

SSA’s policies require that a suitability clause be placed in each of its contracts.4 The
clause provides procedures for obtaining suitability determinations for contractor
personnel who will work either at an SSA facility or have access to Agency program or
sensitive information. Suitability considerations include delinquency or misconduct in
prior employment; criminal, dishonest, infamous, or notoriously disgraceful conduct;
intentional false statement, deception, or fraud on application forms; and narcotics
abuse.

Further, the suitability clause requires that each contractor employee submit to SSA
(1) two completed Forms FD-258, Fingerprint Charts; (2) one completed Form
GSA-176, Statement of Personal History; (3) one completed Optional Form 306,
Declaration of Federal Employment; (4) one completed Fair Credit Reporting Act
authorization form; and (5) one legible photocopy of a work authorization permit and
Social Security number card for a non-U.S. citizen.5



2
  Social Security Acquisition Handbook, Part H2301.
3
  Abstract of Quotation Ordering Information, Solicitation # SSA-RFQ-02-0016.
4
  Social Security Acquisitions Handbook, Security Requirements Clause, Part H2304, Attachment 6.
5
  Social Security Acquisitions Handbook, Security Requirements Clause, Part H2304, Attachment 6
pages 4-5.


Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)             4
The contracts required pre-screening and “final” suitability determinations of contract
employees.6 When pre-screening suitability determinations are required, SSA notifies
the contractor, Contracting Officer and Project Officer in writing whether a prospective
contractor employee may or may not perform under the contract pending a final
suitability determination. SSA policy indicates the final suitability determination should
be completed approximately 45 days after the submission of the completed security
forms. Agency policy requires the pre-screening suitability procedure be performed and
the contractor notified of the results within 5 days of receipt of properly completed
security forms.7 If SSA does not send a pre-screening approval letter, the contract
employee should not be allowed to work on the contract.

Our review indicated that contractor employees performing work related to the claimant
file assembly contracts submitted appropriate security forms for the suitability
determination process. All contractor employees received pre-screening suitability
approval letters from SSA. However, we determined two contractor employees
performed work at the Government-provided space at the OHA Chicago Office before
SSA granted pre-screening approval.

Concern 4: When was the regular trash picked up from this room, and when were
the recycling bins emptied? How can Social Security be certain that none of
these records were compromised if things were placed in the trash that were
shredded or disposed of before this was discovered in May?

                                          The building’s management periodically collects
                                          material for recycling. OHA management provided
                                          documentation indicating recycling bins were
                                          emptied on February 12, 2003 and March 13,
                                          2003. The Agency advised us discarded material
                                          was shredded on March 13, 2003. We could not
                                          verify this information. The OHA Chicago Regional
                                          Office staff provided us the picture on the left. Staff
                                          stated the picture was taken on May 8, 2003 to
                                          show some of the documents the contractors
                                          discarded.

SSA cannot be certain that 1,244 claimant files were not compromised because
documents were discarded in the regular trash or recycling bins before May 2003. An
OHA Chicago employee reported observing in February 2003 trash cans and boxes full
of discarded documents in the contractor’s employee work area. According to the SSA
employee, these documents were eventually placed in recycling bins. We were told



6
  Training Solutions, Contract Number 0600-02-55016, page 13 and Worldwide Industries, Contract
Number 0600-02-55015, page 13.
7
  Social Security Acquisitions Handbook, Security Requirements Clause, Part H2304, Attachment 6,
page 5.


Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)             5
SSA employees did not review the documents contained in these recycling bins at that
time. In addition, four contractor employees stated they discarded duplicate documents
in the trash before May 2003.

Concern 5: Is it standard policy for SSA offices to allow private contractors or
any SSA employees to take boxes of claimants files containing medical and other
information home with them to be organized? If so, what is the justification for
this policy? How many workers nationwide are allowed to do this, per their
contract with SSA? How can SSA have oversight and supervise these people if
they are working at home? How would SSA know if everything in the file was
there when it was returned? Further, how does this prevent identity theft if these
sensitive files are allowed to be worked on in individual homes? Are there any
contracts in the Milwaukee Office of Hearings and Appeals or the regional
Chicago Office of Hearings and Appeals that allow private contractors or any SSA
workers to take these claimant files home?

The two contracts specified where work must be performed.8 Specifically, the contracts
stated that contractors’ employees were not allowed to take claimant files home.9 As of
July 21, 2003, there were 25 of 28 contracts in the Chicago Region where contractors
were allowed to work off-site. SSA staff told us the Commissioner of Social Security
testified before Congress on July 24, 2003, that the “work at home” stipulation would be
eliminated from all contracts. According to SSA staff, current contracts in the OHA
Chicago Region, which includes the Milwaukee OHA, are being performed on-site at
Government-provided space only.

SSA employees are eligible to take files home under certain labor union contract
provisions.10 Specifically, administrative law judges, attorneys, legal technicians, and
other union employees are allowed to work at home up to 3 days a week. The term
used to describe this work at home effort is “flexiplace.”11 Participation in flexiplace is
voluntary and is dependent on an individual’s job. Of SSA’s 64,400 employees,
approximately 52,000 American Federation of Government Employees, 1,000 National
Treasury Employees Union, and 900 International Federation of Professional and
Technical Engineers employees are eligible to participate in flexiplace.




8
  Training Solutions, Contract Number 0600-02-55016, page 2, and Worldwide Industries, Contract
Number 0600-02-55015, page 2.
9
  Id.
10
   National Treasury Employees Union, Article 57, outlines the “Flexiplace Program” dated September 3,
1996; American Federation of Government Employees Union outlines its agreement with the National
Council of Social Security Administration, Office of Hearings and Appeals Locals and the Social Security
Administration, Office of Hearings and Appeals dated December 19, 2000 and the International
Federation of Professional and Technical Engineers outlines the Flexiplace program in Article 15.
11
   Flexiplace is a program designed to permit certain designated employees to perform agency-assigned
work at a management-approved Alternate Duty Station. Agency guidelines have designated qualifying
SSA employees’ Alternate Duty Station will be their homes. Office of Labor-Management and Employee
Relations Website http://eis.ba.ssa.gov/olmer/Links/Flexiplace/flexiplace.htm.


Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)                     6
When SSA or contractor employees are allowed to work “off-site,” SSA does not know
whether documentation is missing when the file is returned to the office. We discussed
SSA employees’ removal of claimant files from the office and their working with the files
at home with SSA Office of Labor-Management and Employee Relations. SSA staff
stated managers would keep a list of the files being taken out of the office; however, the
list does not state the file’s contents.

SSA policy states its employees are responsible for safeguarding Agency documents
and equipment used to work at home.12 However, we believe despite employees’
efforts to safeguard documents, there is no guarantee sensitive information is protected
when files are transported to and from, or maintained at, an employee’s home.

Concern 6: Please identify the 120 Wisconsin residents whose records were
found in the recycling bin. Also, please identify all of the Wisconsin residents
who were part of the 1200 cases worked on by these two contractors.

As of October 2003, SSA had identified that the 2 contractors had handled 1,367
claimant files. Of the 1,367 claimants, 203 were residents of the State of Wisconsin.
The OHA Chicago Regional Office reported 95 of the Wisconsin residents had original
documents discarded.

Response to the Question in the August 5, 2003 Letter

Concern 7: Determine whether responsibility for the decision to throw away
claimants’ files rests with officials at the SSA or private contractors hired by SSA.

Contractor employees did not receive consistent guidance concerning claimant file
assembly. OHA employees were assigned to train the contractor’s employees. Some
OHA employees stated they were unaware of contract requirements for claimant file
assembly. These employees used existing SSA policy to instruct some contractor
employees to discard duplicate documents, which contradicted contract requirements.
Based on instructions provided by SSA, in some instances, contractor employees
discarded documentation.

According to SSA policy, “…it is vital that duplicate or unnecessary material not be filed
in the folder.” If the record “…is already wholly or partially in file…the duplicated
material should be discarded, keeping the most legible copy.”13 The contracts required
“…placing any duplicate documents in the back of the section after marking ‘Duplicate’
at the top right-hand corner.“14 The instruction stated in the contracts contradicted
existing SSA’s policy.



12
   OHA Policy Memorandum, December 2000, section 12, page 8.
13
   Program Operations Manual Section DI 70005.005
14
   Training Solutions, Contract Number 0600-02-55016, page 3-4 and Worldwide Industries, Contract
Number 0600-02-55015, page 3-4.


Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)              7
                                                              Other Matters
Oversight of Contracts
We believe SSA needed better oversight for the two contracts. Employees at one
contractor began performing work at the OHA office in December 2002. After receiving
training for claimant file assembly, contractor employees reported to OHA-provided
office space on December 3, 2002. The contractor’s employees were to continue to
report to the OHA office and perform file assembly work until the contract requirements
were completed. However, employees of one of the contractors did not return to the
OHA location until February 2003. The Project Officer assigned to assist in the
oversight of the contracts did not take action to ascertain the reasons the contractor’s
employees failed to perform work during December 2002 and January 2003.

Further, another Project Officer assigned to oversee the contracts lacked formal training
and experience. Oversight of the two contracts was the Project Officer’s initial
assignment. The Project Officer had not received any formal training. Rather, the
Project Officer was instructed to use a Department of Health and Human Services
handbook as a reference.

Costs Related to Claimant File Assembly Contracts

                                         OHA Chicago Regional Office staff estimated
                                         that, as of October 15, 2003, the additional cost
                                         to “rework” claimant files assembled by the two
                                         contractors and contact individual claimants that
                                         may be impacted by contractor activities to be
                                         about $123,000. Further, OHA Chicago Regional
                                         Office staff stated an additional cost of
                                         approximately $13,000 had been incurred as a
                                         result of assisting us in our review of the two file
                                         assembly contracts. In total, these costs exceed
                                         the original contract costs of $82,500 by $53,500.

OHA Chicago Regional Office staff provided the picture above. Staff stated the picture
was taken on May 8, 2003, to show some of the recovery process undertaken by staff in
the OHA Chicago Regional Office.




Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)      8
                                                      Appendix
Appendix A – Scope and Methodology




Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)
                                                                          Appendix A

Scope and Methodology
We collected and reviewed information specific to the concerns raised in July 21, 2003
and August 5, 2003 letters from Representatives from the State of Wisconsin. The
letters identified several issues concerning the discarding of claimant medical files
assigned to the Office of Hearings and Appeals’ Chicago Regional Office from
December 2002 through May 2003.

To achieve our objective, we:

•   Examined Social Security Administration (SSA) contracts awarded to two
    contractors to procure case file assembly services in the Office of Hearings and
    Appeals’ Chicago Regional Office.

•   Reviewed case files assembled by contractor employees to determine the number of
    cases involved in the assembly process, all affected cases identified, and whether
    corrective actions had been taken.

•   Reviewed SSA policy for allowing contractors and/or SSA employees to take
    claimant files and medical information home.

•   Reviewed SSA policy concerning suitability determinations for contractors and their
    employees.

•   Assessed SSA Office of Hearings and Appeals’ compliance with SSA security-
    related policies for the contracts pertaining to case file assembly.

•   Assessed the disposition of disability cases involving discarded medical records and
    other documents.

In addition, we interviewed Office of Hearings and Appeals staff and contractor
employees to obtain additional information regarding the issues reviewed.

The SSA operating component reviewed was the Chicago Regional Office of Hearings
and Appeals within the Office of the Deputy Commissioner for Disability and Income
Security Programs. We performed our review in Baltimore, Maryland; Chicago, Illinois;
and Falls Church, Virginia, from August through November 2003. We conducted our
review in accordance with Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.




Chicago Regional Office of Hearings and Appeals Claimant Medical Files (A-13-04-24045)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
